                                                         Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Announcement —FAA’s                     Date:   July 18, 2005
           Joint Planning and Development Office
           Project No. 05A3012A000

  From:                                                            Reply to
           David A. Dobbs                                          Attn of:   JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits

    To:    Ramesh K. Punwani
           Assistant Administrator for Financial
            Services/CFO

           In response to Vision 100-Century of Aviation Reauthorization Act (Public Law
           108-176), the Federal Aviation Administration (FAA) has established a Joint
           Program and Development Office (JPDO) to coordinate research conducted by
           various Federal agencies and develop a vision for the next generation air traffic
           management system in the 2025 timeframe.

           FAA published the Next Generation Air Transportation System Integrated Plan for
           the JPDO in December 2004. However, the plan did not specify what new
           capabilities would be pursued or how much they would cost. Moreover, recent
           congressional hearings underscored the need for actions that can materially
           improve how air traffic is managed well before the 2025 timeframe. A clear
           understanding of funding requirements for the new office (and how they will be
           paid for) will be important as Congress prepares to reauthorize FAA programs and
           explores financing mechanisms.

           At the request of the Chairman and Ranking Member of the House Aviation
           Subcommittee, we are examining progress to date with the new JPDO. The
           objectives of the audit will be to determine: (1) progress made by JPDO in
           aligning and leveraging research conducted by other Federal agencies, (2) how the
           JPDO will shift new technologies and capabilities from research to prototype and
           introduction into the National Airspace System, and (3) what barriers JPDO must
           overcome to transition to a new air traffic management system.
This audit will be conducted at FAA Headquarters, selected research laboratories,
and other locations as deemed necessary. We plan to start this audit the week of
July 18, 2005. We will contact FAA’s audit liaison to arrange a formal entrance
conference. Matt Hampton is the Program Director for this audit. If you have any
questions or need additional information, please call me at (202) 366-0500 or
Mr. Hampton at (202) 366-1987.

                                       #

cc: FAA Deputy Administrator
    FAA Chief of Staff
    FAA Chief Operating Officer
    Anthony Williams, ABU-100
    Martin Gertel, M-1
